          Smithsonian Institution                                                     Memo

          Office of th e Ins pector General




  Date    March 29, 2013

    To    Albert Horvath, Under Secretary for Finance and Administration/Chief
           Financial Officer
          Richard Kurin, Under Secretary for History, Art and Culture
          Eva Pell, Under Secretary for Science
          Scott Miller, Deputy Under Secretary for Collections and Interdisciplinary
           Support

     cc   Sudeep Anand, Treasurer
          Nancy Bechtol, Director, Office of Facilities, Engineering and Operations
          William Lynch, Director, Office of Protection Services
          William Tompkins, Director, National Collections Program
                                                                      -I)       ~~
  Fro m   Michael Sinko, Assistant Inspector General for Audits   ~         ~
Subject   Audit of Security of Transporting High-Value Objects, (Audit Number
          A-13-0S)

          On January 8, 2013 we issued an engagement letter announcing the
          Audit of Security of Transporting High-Value Objects. We have since
          met with representatives from the Office of Protection Services, the
          Nationals Collection Program , and the Office of the Treasurer to obtain
          background information and to gain an understanding of the current
          program and operating procedures.

          During the course of these meetings, we found that management is
          processing a draft update to the policy relating to the security of
          transporting objects outside of Smithsonian buildings (Smithson ian
          Directive 600, Collections Management, Implementation Manual) .
          Management stated that Smithsonian stakeholders were reviewing this
          draft and that a rev ised policy was ex pected to be implemented by
          early summer 2013 .

          Based on our preliminary review of the draft policy, it appears that the
          planned updates would have been the focus of our audit objectives and
          scope of review. Therefore, in order to allow management time to
          implement these changes, we have decided to suspend this audit at
          this time.




          MRC 524
          PO Box37012
          Washington DC 20013-0712
          202.633.7050 Tel epho ne
          202.633-7079 Fax
As part of our fiscal year 2014 audit planning process, we wil l
reconsider this audit ba sed on our assessment of its overall risk to the
Smithsonian.

Pl ease contact me or Joan Mocke ridg e at 202.633.7050 if you have any
qu estions or comments. Thank yo u for yo ur coo peration.




MRC 524
PO Box 37012
W ashi ngto n DC 20013·07 12
202.633.7050 Tel epho ne
202.633-7079 Fax
